                                       SOCIAL SECURITY
MEMORANDUM

Date:      August 11, 2010                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Indicator Audit: Environmental Management System (A-15-10-11072)


           We contracted with KPMG to evaluate 10 of the Social Security Administration's (SSA)
           performance indicators established to comply with the Government Performance and
           Results Act. The attached final report presents the results for one of the performance
           indicators evaluated. For the performance indicator included in this audit, KPMG's
           objectives were to:

              •   Comprehend and document the sources of data that were collected to report on
                  the performance indicator.
              •   Identify and test critical controls (both electronic data processing and manual) of
                  systems from which the performance data were generated.
              •   Test the adequacy, accuracy, reasonableness, completeness, and consistency of
                  the underlying data for the performance indicator.
              •   Recalculate the measure to ascertain its accuracy.
              •   Determine whether an alternate performance indicator may provide a more
                  meaningful and/or complete measure of the program or process SSA is
                  attempting to capture.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                                   Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    PERFORMANCE INDICATOR AUDIT:
 ENVIRONMENTAL MANAGEMENT SYSTEM

      August 2010   A-15-10-11072




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S o c ia l S e c u rity
Ad m in is tra tio n ’s (S S A) p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d ,
wa s te a n d a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e
to Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l (IG) Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

 Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d in ve s tig a tio n s
    re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
 P ro mo te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
 P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
  o p e ra tio n s .
 Re vie w a n d m a ke re c o mm e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
  le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
 Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
  p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

 In d e p e n d e n c e to d e te rmin e wh a t re vie ws to p e rfo rm .
 Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
 Au th o rity to p u b lis h fin d in g s a n d re c o mm e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve me n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e mp lo ye e d e ve lo p me n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
MEMORANDUM

Date:      July 28, 2010

To:        Inspector General

From:      KPMG, LLP

Subject:   Performance Indicator Audit: Environmental Management System
           (A-15-10-11072)


OBJECTIVE

The Government Performance and Results Act of 1993 (GPRA) 1 requires that the
Social Security Administration (SSA) develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

For this audit of SSA performance indicator, Develop and Implement an Agency
Environmental Management System, for Fiscal Year (FY) 2009, our objectives were to:

1. Comprehend and document the sources of data that were collected to report on the
   specified performance indicator.

2. Identify and test critical controls (both electronic data processing and manual) of
   systems from which the specified performance data were generated.

3. Test the adequacy, accuracy, reasonableness, completeness, and consistency of
   the underlying data for the specified performance indicator.
1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).




Performance Indicator Audit: Environmental Management System (A-15-10-11072)                         1
4. Recalculate each measure to ascertain its accuracy.

5. Determine whether an alternate performance indicator may provide a more
   meaningful and/or complete measure of the program or process SSA is attempting
   to capture.

                                       ******************
This performance audit did not constitute an audit of financial statements in accordance
with Government Auditing Standards. KPMG was not engaged to, and did not, render
an opinion on SSA’s internal controls over financial reporting or over financial
management systems (for purposes of Office of Management and Budget [OMB]
Circular No. A-127, Financial Management Systems, July 23, 1993, as revised). KPMG
cautions that projecting the results of our evaluation to future periods is subject to the
risks that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.

BACKGROUND

We audited the following performance indicator, which was included in SSA’s FY 2009
Performance and Accountability Report (PAR).4

           Performance Indicator                 FY 2009 – Target             FY 2009 – Actual

    Develop and Implement an Agency             Develop a High-           High-Level Project
    Environmental Management System             Level Project Plan        Plan Completed

The strategic objective related to this performance indicator is Use ‘Green’ Solutions to
Improve Our Environment. This indicator is intended to measure/report SSA’s
compliance with January 2007 Presidential Executive Order (EO) 13423, Strengthening
Federal Environmental, Energy, and Transportation Management. 5 EO 13423 requires
that Federal agencies conduct their environmental, transportation, and energy-related
activities in support of their mission. In addition, the EO requires that all agencies
implement an Environmental Management System (EMS) as the primary management
approach for addressing environmental aspects of internal agency operations and
activities.
An EMS is a set of processes and practices that enable an organization to reduce its
environmental impacts and increase its operating efficiency. It allows an organization to

4
    SSA, FY 2009 PAR, p. 70.
5
 Presidential EO 13423 of January 24, 2007, Federal Register, Vol. 72, No. 017, 72 Federal Register
3919, January 26, 2007.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)                          2
systematically manage its environmental matters through a continual cycle of planning,
implementing, reviewing, and improving the processes and actions that an organization
undertakes to meet its business and environmental goals.

Performance Indicator Background

In September 2008, the Office of the Federal Environmental Executive (OFEE) began
contacting Federal agencies that had not yet implemented an EMS to determine how
EO 13423 may be applicable to them. OFEE believed that SSA would benefit from an
organization-level EMS. SSA concurred and agreed to implement an EMS by FY 2012.

SSA’s Environmental Management Team (EMT) began developing a “high-level project
plan” to implement an EMS. The development of the project plan was accomplished
through a collaborative effort of the EMT using a relatively informal and unstructured
process where the EMT’s thoughts were shared and documented.

The high-level project plan is the first step of the longer-term process of implementing
an EMS, which will take place over several years. The project plan contains the
following requirements from EO 13423.

•   Designation of Senior Official
•   Training Requirement
•   Compliance Review and Audit Programs
•   Energy and Waste Management
•   Green Purchasing
•   Waste Diversion and Recycling
•   Sustainable Design/High Performance Buildings
•   Fleet Management
•   Electronics Stewardship
•   Other Requirements

The project plan is subject to significant changes over time as the EMT provides
additional thought and consideration as to what should be included in the project plan.
There was no formal review and approval process in the development of SSA’s project
plan.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)               3
RESULTS OF REVIEW
Overall, we found that the performance indicator, Develop and Implement an Agency
Environmental Management System, did not provide a meaningful and complete
analysis of a specific SSA program or process that directly related to achieving SSA’s
mission to “. . . deliver Social Security services that meet the changing needs of the
public.”

In accordance with GPRA (Chapter 31, Section 1115 of the U.S.C.),6 agencies are
required to establish performance indicators to measure or assess the relevant outputs,
service levels, and outcomes of each program activity. SSA administers the Old-Age,
Survivors Insurance, Disability Insurance, and Supplemental Security Income programs.
Developing and implementing an EMS does not measure or assess any of SSA’s
programs. EO 13423, as it relates to the performance indicator, refers to an EMS as
the primary management approach for addressing environmental aspects of internal
agency operations and activities. We are not questioning the value of an EMS to the
Government or the public, but the status of the EMS initiative would be better reported
in another appropriate reporting vehicle and not in the context of program performance
under GPRA.

Although a project plan has been developed, SSA had not implemented an EMS as of
the end of FY 2009. The FY 2009 target, Develop a High-level Project Plan, did not
determine whether an EMS was developed and implemented or whether there was any
outcome in terms of Green Solutions.

The underlying data for the performance indicator are a high-level project plan. The
high-level project plan was adequate, reasonable, and complete as it identified
timeframes, specific responsibilities, and training for implementation of an EMS, which
is the type of information called for in EO 13423 and the Environmental Protection
Agency’s (EPA) guidance on what components must be included in an EMS.7
However, the project plan had not been finalized, approved, or implemented as of the
end of FY 2009. The project plan is constantly changing as more input is provided.

We did not recalculate the performance indicator to ascertain its accuracy because the
target was to develop a high-level project plan and could not be recalculated.

Finally, the performance indicator data are not supported by any of SSA’s systems. As
a result, it was not necessary to assess the critical internal controls over systems.


6
    This section of the U.S.C. pertains to performance plans and the requirements thereof.
7
 EO 13423 does not spell out requirements for the pre-implementation phase of an EMS nor does it
specify a deadline by which an EMS must be implemented. As such, the determination as to whether the
project plan for an EMS was successfully completed is highly subjective.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)                       4
CONCLUSION AND RECOMMENDATIONS
We found that the performance indicator did not provide a meaningful and complete
analysis of a specific SSA program or process that directly relates to achieving SSA’s
mission to “. . . deliver Social Security services that meet the changing needs of the
public.”

It is premature to begin measuring the results of environmental initiatives, as the data
are not being tracked. While we understand SSA’s desire to demonstrate to the public
that it is working toward the “use of green solutions,” SSA has not implemented a plan
in a measurable way or on a scale that is significant to the Agency as a whole.

We recommend that SSA:

1. Eliminate this performance indicator from inclusion in the performance section of the
   PAR since it does not measure or assess the relevant outputs, service levels, and
   outcomes of a specific SSA program or disclose that the performance indicator
   cannot be measured.

2. Report progress toward implementing an EMS in the Management’s Discussion and
   Analysis section of the PAR or another appropriate reporting vehicle.

3. Report its “green” solutions when the EMS is implemented in FY 2012 (or sooner, as
   appropriate) and readily quantifiable (either in terms of dollars saved and/or units of
   pollution that have been eliminated). Such results could then be measured against
   Federal or comparable commercial benchmarks or Federal expectations for
   environmental compliance with EO 13423.

AGENCY COMMENTS
SSA disagreed with one of our recommendations (number one) and agreed with two of
our recommendations (numbers two and three). With regard to recommendation
number one, SSA stated that since the performance indicator is included in the
agency’s Annual Performance Plan (APP), they must include it in the FY 2010 PAR.
SSA agreed to consider the recommendation as they develop their new strategic plan.

In addition, SSA disagreed with one of the statements in the report. SSA believes that
the performance indicator provides a meaningful and complete analysis of SSA
programs or processes that directly relate to achieving its mission and that the internal
agency operations and activities that the EMS addresses are necessary to achieve its
mission.

The full text of SSA’s comments can be found in Appendix D.

KPMG RESPONSE

Performance Indicator Audit: Environmental Management System (A-15-10-11072)                5
We appreciate the Agency’s comments and consideration of our recommendations and
statements. Management noted disagreement with our first recommendation as
discussed above and included in their full comments in Appendix D. While compliance
with applicable EOs is expected of all agencies, this specific EO does not directly
address SSA’s core mission and its strategic plan, which is the overall intent of GPRA.
Achievement of SSA’s mission would occur regardless of SSA implementing green
solutions.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)          6
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Process Flowchart

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments




Performance Indicator Audit: Environmental Management System (A-15-10-11072)
                                                                       Appendix A
Acronyms
      APP                Annual Performance Plan
      EMS                Environmental Management System
      EMT                Environmental Management Team
      EO                 Executive Order
      EPA                Environmental Protection Agency
      FY                 Fiscal Year
      GPRA               Government Performance and Results Act
      OFEE               Office of the Federal Environmental Executive
      OMB                Office of Management and Budget
      PAR                Performance and Accountability Report
      SSA                Social Security Administration
      U.S.C.             United States Code




Performance Indicator Audit: Environmental Management System (A-15-10-11072)
                                                                                           Appendix B
Process Flowchart

Develop and Implement an Agency Environmental Management System
         OFEE




                             Identified SSA as an    Informed SSA that it
         OFEE




                             agency that had not     would benefit from an
                            implemented an EMS              EMS




                                                       Established an
          SSA




                           Agreed to implement an       Environmental
         SSA




                                EMS at SSA            Management Team
                                                           (EMT)
                 Team
    ManagementTeam
       Environmental
      Environmental




                                                       Identified roles and       Drafted the Social
                             Members of the EMT      responsibilities for the   Security Administration
           (EMT)
    Management
         (EMT)




                             attended training on       EMS and agency             Organizational
                                developing and      environmental Impacts to       Environmental
                            implementing an EMS       be tracked using the       Management System
                                                               EMS                   (EMS) Plan




Performance Indicator Audit: Environmental Management System (A-15-10-11072)
                                                                       Appendix C
Scope and Methodology
Our audit scope was limited to reviewing the performance indicator, Develop and
Implement an Agency Environmental Management System, for Fiscal Year 2009. We
obtained an understanding of the Social Security Administration’s (SSA) Government
Performance and Results Act (GPRA) processes. This was completed through
research and interviewing key personnel responsible for the performance indicator. The
primary SSA components responsible for this measure are The Office of Vision and
Strategy within the Office of the Chief Information Officer and The Office of Budget,
Finance and Management.

Through inquiry and observation, we

 reviewed applicable laws, regulations, and SSA policy;

 interviewed appropriate SSA personnel to confirm our understanding of the
  performance indicator; and

 assessed the reasonableness of the data to determine their reliability as they
  pertained to the objectives of the audit and intended use of the data.

We documented our understanding, as conveyed to us by Agency personnel, of the
alignment of the Agency’s mission, goals, objectives, processes, and related
performance indicators and used that understanding to determine whether the
performance indicator appeared to be valid and appropriate.

We conducted our performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)
                                                                       Appendix D
Agency Comments




Performance Indicator Audit: Environmental Management System (A-15-10-11072)
                                          SOCIAL SECURITY



MEMORANDUM


Date:      July 9, 2010                                                            Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn/s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, Performance Indicator Audit:
           Environmental Management System (A-15-10-11072)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Environmental Management System (A-15-10-11072)              D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
AUDIT REPORT “PERFORMANCE INDICATOR AUDIT: ENVIRONMENTAL
MANAGEMENT SYSTEM” (A-15-10-11072)

Thank you for the opportunity to comment on the draft report. We offer the following
comments:

COMMENTS ON RECOMMENDATIONS

Recommendation 1

Eliminate this [environmental management system (EMS)] performance indicator from inclusion
in the performance section of the Performance and Accountability Report (PAR) since it does not
measure or assess the relevant outputs, service levels, and outcomes of a specific SSA program
or disclose that the performance indicator cannot be measured.

Comment

We disagree. Office of Management and Budget (OMB) Circular A-11 requires the PAR to state
the performance for every performance indicator in the agency’s Annual Performance Plan
(APP). Since we present this indicator in the fiscal year (FY) 2011 and Revised Final FY 2010
APP, we must include it in the FY 2010 PAR. However, we will consider this recommendation
as we develop our new agency strategic plan in accordance with recently issued OMB guidelines
(Memorandum 10-24 Performance Improvement Guidance: Management Responsibilities and
Government Performance and Results Act Documents).

Further, we disagree with the statement on page 4 that “…an EMS does not measure or assess
any of SSA’s programs.” While you define our programs as the Old-Age, Survivors Insurance,
Disability Insurance, and Supplemental Security Income programs, the Government
Performance and Results Act of 1993 (GPRA) more broadly defines a “program” as follows:

       A “program” shall be designated to include any organized set of activities directed
       toward a common purpose or goal that an agency undertakes. The term may
       describe an agency’s mission, functions, activities, services, projects, and
       processes, and is defined as an organized set of activities directed toward a
       common purpose or goal that an entity undertakes or proposes to carry out its
       responsibilities.

Although GPRA does require agencies to establish performance indicators that measure or assess
the outcomes of agency program activities, the law does not limit performance indicators to
measure only our benefit programs. In fact, we have numerous performance indicators that
meet the GPRA requirements to measure our programs as defined in this report. Specifically,
this performance indicator aligns with Strategic Goal 4, Objective 4.6, Use “green” solutions to
improve our environment.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)                 D-2
Finally, OMB reviewed and approved our APP and its performance indicators before we
published the document. OMB did not suggest that the indicator did not coincide with GPRA
requirements.

Recommendation 2

Report progress toward implementing an environmental management system (EMS) in the
Management’s Discussion and Analysis section of the PAR or another appropriate reporting
vehicle.

Comment

We agree. We will consider this recommendation when preparing the Management’s Discussion
and Analysis section of the FY 2010 PAR.

Recommendation 3

Report its “green” solutions when the EMS is implemented in FY 2012 (or sooner, as
appropriate) and readily quantifiable (either in terms of dollars saved and/or units of pollution
that have been eliminated). Such results could then be measured against Federal or comparable
commercial benchmarks or Federal expectations for environmental compliance with EO 13423.

Comment

We agree. Once we implement the plan, we will evaluate and determine appropriate “green”
solution measures related to this goal.

PARAGRAPH/SENTENCE SPECIFIC COMMENTS

Page 4, 1st sentence under “Results of Review” reads in part:

“the performance indicator…did not provide a meaningful and complete analysis of a specific
SSA program or process that directly related to achieving SSA’s mission…”

Comment

We disagree with this statement. We created the performance indicator to comply with
Executive Order (EO) 13423, Strengthening Federal Environmental, Energy, and Transportation
Management. The EO requires that Federal agencies conduct their environmental,
transportation, and energy-related activities in support of their mission. All agencies must
implement an EMS as the primary management approach for addressing environmental aspects
of internal agency operations and activities. The internal agency operations and activities the
EMS addresses are necessary operations and activities that influence our ability to achieve our
mission and as such is a stewardship function.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)                   D-3
Page 4, 3rd paragraph under “Results of Review” reads in part:

“SSA had not implemented an EMS as of the end of FY 2009. The FY 2009 target, Develop a
High-level Project Plan, did not determine whether an EMS was developed and implemented or
whether there was any outcome in terms of Green Solutions.”

Comment

The FY 2009 target for this performance measure was to develop a high-level project plan.
Implementation is not required until FY 2012. We provide this information in the Data
Definition and the Discussion for the performance indicator on page 70 of the FY 2009 PAR.
Additionally, this was a new performance measure for FY 2009. Therefore, reporting any
significant “green solution” outcomes would be premature. However, we will take this particular
suggestion under advisement for future reporting.

Page 5, 1st paragraph under “Conclusions and Recommendations” reads:

“We found that the performance indicator did not provide a meaningful and complete analysis of
a specific SSA program or process that directly relates to achieving SSA’s mission to “. . .
deliver Social Security services that meet the changing needs of the public.”

Comment

We disagree with this statement because it implies that all performance indicators must relate
directly to achieving the agency’s mission. As noted in our response to recommendation 1,
performance indicators are not restricted to these criteria.

Page 5, 2nd paragraph under “Conclusions and Recommendations” reads:

“It is premature to begin measuring the results of environmental initiatives, as the data are not
being tracked. While we understand SSA’s desire to demonstrate to the public that it is working
toward the “use of green solutions,” SSA has not implemented a plan in a measurable way or on
a scale that is significant to the Agency as a whole.”

Comment

We agree it is premature to measure the results of environmental initiatives. However, we
disagree that we have not implemented a plan in a measurable way or on a scale that is
significant to us as a whole. We are on target to implement the EMS plan in FY 2012. The
fiscal year targets for this indicator are milestones that lead to EMS full implementation by 2012.
We explain the overall target on page 70 of the FY 2009 PAR, under Data Definition. While the
milestones to implement this plan may seem insignificant, we view the final target to implement
the EMS in FY 2012 to be significant to the President and us.




Performance Indicator Audit: Environmental Management System (A-15-10-11072)                     D-4
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board




Performance Indicator Audit: Environmental Management System (A-15-10-11072)
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                         Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
